GENERAL SERVICES ADMINISTRATION
   OFFICE OF INSPECTOR GENERAL



                   Recovery Act Report –
     GT “Mickey” Leland Federal Building Renovation
               Project: Construction Contract
    Audit of PBS’s Major Construction and Modernization
       Projects Funded by the American Recovery and
                  Reinvestment Act of 2009
             Audit Number A090172/P/R/R11013

                      August 19, 2011
Date:             August 19, 2011

Reply to          R. Nicholas Goco
Attn of:          Deputy Assistant Inspector General
                  for Real Property Audits (JA-R)

Subject:          Recovery Act Report – GT “Mickey” Leland Federal Building
                  Renovation Project: Construction Contract
                  Audit of PBS’s Major Construction and Modernization Projects Funded by
                  The American Recovery and Reinvestment Act of 2009
                  Audit Number A090172

To:               Robert A. Peck
                  Commissioner, Public Buildings Service (P)


During our audit of the construction contract for the GT “Mickey” Leland Federal Building
(Leland) renovation project 1 we identified an issue that warrants your attention. PBS awarded
the contract using a statement of work template that incorporated a pricing structure not intended
for the project delivery method used.

The construction contract for the Leland project was awarded as a Design Build with Bridging
(DBB) contract. This type of contract is a fusion of traditional and design build project delivery
methods, whereby PBS produces limited drawings (bridging documents) and the DBB firm
finalizes the design. The DBB firm then constructs the project. DBB contracts are generally
awarded at a firm-fixed price for both the design and construction services.

PBS awarded the Leland project using the Guaranteed Maximum Price 2 (GMP) with a shared
savings incentive 3 for the construction delivery phase of the contract template. This pricing
structure was not intended for use with the DBB project delivery methodology; it was developed
by PBS for use in Construction Manager as Constructor (CMc) contracts. PBS has
acknowledged this distinction, and removed the GMP template from its website. However, the
contracting officer for the Leland project had already obtained a copy from the Office of Design
and Construction website and used it, believing she was acting in accordance with the policy for
design build bridging.
1
  We conducted this audit as part of our oversight of the General Services Administration’s American Recovery and
Reinvestment Act projects.
2
  GMP includes the estimated cost of construction, construction contingency allowance, and fixed fee. It is the
maximum amount the Government will pay for construction and is set at the time of contract award.
3
  If the actual cost of performance agreed to between PBS and the contractor (sum of the cost of work and fee) was
less than the GMP set forth in the contract, the contractor would be awarded 50 percent of the difference as its share
of the savings.

                                                          1
While GMP pricing may be legally permissible for DBB contracts, there are several key
differences between CMc and DBB contracts that make this pricing structure inappropriate for
the DBB delivery method.

    •   Design Responsibility - In the CMc delivery method, a separate firm develops the project
        design. The CMc contractor is hired to provide design-related services, 4 but is not
        responsible for actual project design. Since contract award is made before design
        documents are completed, construction phase services are included as a contract option
        with an adjustable price based on actual costs incurred. The GMP is established to set a
        ceiling price for the construction phase.

        In DBB contracts, the same firm is responsible for both design and construction. Since
        this responsibility rests with a single entity, DBB contractors have greater control over
        the project. Due to this clearer responsibility, these contacts can be awarded at an
        enforceable fixed price. Hence, a GMP ceiling price is not necessary in a DBB contract.

    •   Contingency Allowance - Since errors by the design firm may result in increased
        construction costs, CMc contracts include a construction contingency allowance as part
        of the GMP. The GMP is adjusted for changes related to design errors, omissions, and
        constructability only after the contingency allowance is exhausted. This shifts the
        financial risk to the CMc contractor.

        In contrast, DBB contracts are awarded at fixed prices with no contingency allowance.
        These firms are responsible for project design and, therefore, design errors. PBS should
        not provide a contingency allowance to compensate the DBB contractor for cost increases
        resulting from its own design errors.

    •   Reliance on Contractor Records - Since DBB contracts are generally priced on a
        competitively bid fixed price basis, they do not call for Cost Accounting Standards (CAS)
        audits. CMc contracts include a clause requiring CAS audits because PBS must be able
        to rely on the contractor’s financial records to determine actual project costs and calculate
        shared savings. Additionally, Public Law 100-679 (41 U.S.C. 422) requires that
        nonexempt contracts 5 exceeding $50 million fully comply with CAS.

In this instance, the contract was awarded for $77.3 million but did not include a CAS clause.
Since the contract value exceeds $50 million and is nonexempt, a CAS audit should have been
required. Subsequent to our audit of this contract and our discussions with PBS, the Greater
Southwest Region issued a modification to incorporate CAS clauses.


4
  Design phase services include providing the design concept and design development submissions, providing the
cost estimate and budget breakdowns, conducting design workshops and team meetings, and developing the
construction work sequencing.
5
  The Federal Acquisition Regulation exempts contracts from CAS if they are fixed price contracts for which the
reliability of a contractor’s accounting systems is not expected to affect the determination of a contractor’s
compensation.

                                                       2
Since the Leland contract used a pricing structure not intended for DBB contracts, PBS should
audit this contract to ensure that it meets all legal requirements and accounts for any potential
business risk.


Recommendations

We recommend that the Commissioner of the Public Buildings Service review the Leland
contract award to identify any further contract deficiencies and mitigate the risks that the
Government has assumed by awarding this contract using an inappropriate statement of work
template.


Management Comments

In its response to the draft report, PBS concurred with the OIG findings and accepted the report
recommendation. PBS’s response is included in its entirety as Attachment A to this report.


We appreciate the support provided to us throughout this audit. If you have any questions about
this report, please contact me at (202) 219-0088.


Sincerely,



R. Nicholas Goco
Deputy Assistant Inspector General for Real Property Audits (JA-R)




                                               3
                           Recovery Act Report –
GT “Mickey” Leland Federal Building Renovation Project: Construction Contract
           Audit of PBS’s Major Construction and Modernization
               Projects Funded by the American Recovery and
                          Reinvestment Act of 2009
                          Audit Number A090172

                           Management Comments




                                    A-1
A-2
A-3
                               Recovery Act Report –
    GT “Mickey” Leland Federal Building Renovation Project: Construction Contract
               Audit of PBS’s Major Construction and Modernization
                   Projects Funded by the American Recovery and
                              Reinvestment Act of 2009
                              Audit Number A090172

                      Background, Objective, Scope, and Methodology

Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provides the General
Services Administration (GSA) with $5.55 billion for the Federal Buildings Fund. In accordance
with the Recovery Act, the GSA Public Buildings Service (PBS) is using the funds to convert
federal buildings into High-Performance Green Buildings as well as to construct federal
buildings, courthouses, and land ports of entry. The Recovery Act mandated that $5 billion of
the funds be obligated by September 30, 2010, and that the remaining funds be obligated by
September 30, 2011. The GSA Office of Inspector General (OIG) is conducting oversight of the
projects funded by the Recovery Act.

The Leland Federal Building renovation project existed prior to the Recovery Act. Design
funding was provided in fiscal year 2006. However, as a result of the Recovery Act, the design
and construction of the Leland Federal Building renovation was changed from a Construction
Manager as Constructor delivery project to a Design Build delivery project. The renovation
project includes replacement of the building’s window system, heating/ventilation/air
conditioning modernization, as well as upgrades to the building lobby, plaza, and garage. PBS
awarded the design build construction contract on March 30, 2010, for $77.3 million.

Objective

The objective of the OIG’s Recovery Act oversight is to determine if PBS is planning, awarding,
and administering contracts for major construction and modernization projects in accordance
with prescribed criteria and Recovery Act mandates.

Scope and Methodology

To accomplish this objective we conducted fieldwork in the Greater Southwest Region, reviewed
the contract file and other pertinent project documents, met with project staff, and reviewed
applicable guidance and regulations. The work for this report was performed between February
2011 and May 2011 while evaluating the award for the construction of the Leland Federal
Building project in Houston, Texas.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                             B-1
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The planning for this audit is based on the audit plan for oversight of the Recovery Act projects
as well as audit guidance being applied to all Recovery Act projects. A separate audit guide was
not prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls
discussed in the report have been assessed.




                                              B-2
                               Recovery Act Report –
    GT “Mickey” Leland Federal Building Renovation Project: Construction Contract
               Audit of PBS’s Major Construction and Modernization
                   Projects Funded by the American Recovery and
                              Reinvestment Act of 2009
                              Audit Number A090172

                                      Report Distribution


Commissioner, Public Buildings Service (P)

Regional Commissioner, Public Buildings Service (9P)

Director, Internal Control and Audit Division (BEI)

Assistant Inspector General for Auditing (JA, JAO)

Special Agent in Charge (JI-9)

Regional Inspector General for Audits (JA-9)

Assistant Inspector General for Investigations (JI)




                                               C-1
